Background
    g
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense Inspector General at
http://www.dodig.mil/audit/reports or contact the Secondary Reports Distribution Unit at (703) 604-8937
(DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by phone (703)
604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                                      ODIG-AUD (ATTN: Audit Suggestions)
                                      Department of Defense Inspector General
                                      400 Army Navy Drive (Room 801)
                                      Arlington, VA 22202-4704




  See Appendix A for Acronyms and Abbreviations.
                                            Office of Inspector General
                                             Department of Defense
                                              400 Army Navy Drive
                                            Arlington VA 22202-4704

                                                                                                      February 18, 2011

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS
               DIRECTOR, DEFENSE LOGISTICS AGENCY


SUBJECT: Lean Six Sigma Project - Defense Logistics Agency/Honeywell Long-Term Contract Model Using
         One-Pass Pricing for Sole-Source Spare Parts (Report No. 0-2011-042)


We are providing this nonaudit service report for your information and use. The report is being published in final form.
The Lean Six Sigma Project was a collaborative effort with officials from the 000 Lean Six Sigma Program Office, the
Defense Logistics Agency, Honeywell International, Incorporated, and the 000 Office of Inspector General. The
project reduced prices for 348 sole-source spare parts by $9.5 million and canceled $3.2 million of overprocured
automated orders. The project also recommended improvements to the process that have been incorporated into
standard operating procedures.

Personally identifiable information for team members was redacted from this version of the report.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-9201 (DSN 664-9201).




                                                                     Richard B. Jolliffe
                                                                     Assistant Inspector General
                                                                     Acquisition and Contract Management
 Report No. D-2011-042 (Project No. D2009-D000CH-0002.000)                                                                  February 18, 2011

                                       Lean Six Sigma Project – Defense Logistics Agency/Honeywell Long-Term
                                         Contract Model Using One-Pass Pricing for Sole-Source Spare Parts

What We Did: To address concerns with the length of the Defense Logistics Agency(DLA)/Honeywell contract
(12 years) without a significant pricing review and the effectiveness of the one-pass pricing process, the project was
initiated to determine whether actual costs had increased in line with inflation. The purpose of escalation clauses is to
provide adjustments to the contract price as a result of changes in the national economy, so that the contractor will
realize neither economic benefit nor economic loss because of economic fluctuations.
What We Found                                                                            The project also identified $3.2 million of
   The project resulted in significant improvements                                      overprocured automated orders, which were
                 g supplier
   to the strategic   pp     alliance with Honeywell
                                                 y                                       canceled.
   International, Incorporated (Honeywell).                                       Benefits of the One-Pass Pricing Process
   Specifically, the project recommended a
                                                                                      The one-pass pricing process involved real-time
   repricing clause (at the 3- to 5-year mark), which
                                                                                      advice from DLA Cost/Price, DoD Office of
   will help ensure that pricing is fair and
                                                                                      Inspector General (OIG), Defense Contract Audit
   reasonable over the course of the long-term
                                         long term
                                                                                      A
                                                                                      Agency   (DCAA) * and
                                                                                               (DCAA),      dDDefense
                                                                                                                f      Contract
                                                                                                                       C
   contract. The project also recommended using a
                                                                                      Management Agency (DCMA) to the DLA
   statistical sample to effectively reprice
                                                                                      contracting officer reviewing the Honeywell cost
   thousands of items.
                                                                                      proposal. The process provided a high level of
      Overall,, the project
                    p j     reduced pprices on 348 sole-                                                    g
                                                                                      confidence in the negotiated  p
                                                                                                                    prices because costs
      source spare parts valued at about                                              were examined before items were placed on long-
      $100.8 million (based on 3-year sales) to                                       term contracts. The one-pass pricing process:
      $91.3 million, or by about $9.5 million or                                        – reduced and stabilized prices using current
      9.4 percent for future procurements. This should                                      cost data;
      generate $3.16
                 $3 16 million in annual recurring                                      – reduced administrative costs for both
      savings. The project also showed that prices                                          Honeywell and DLA; and
      have increased less (11.7 percent) than the
                                                                                        – provided transparency of Honeywell costs
      inflation rate over a 19-year period, and
                                                                                            and the basis for those costs, which allowed
      significant administrative savings have been
                                                                                            the Government to price parts at the most
      obtained
        b i db   by DLA and dHHoneywell.ll
                                                                                            economical order quantities, to assure the
                                                                                            best value for DoD and the taxpayer.
*OnAugust 5, 2008, DCAA discontinued participation in integrated product teams, to include one-pass pricing, due to concerns that its participation would
result in noncompliance with Generally Accepted Government Auditing Standards.
                                                                              i
                                            Table of Contents

Background
    g                                                Analyze
                                                         y Tollgate
                                                                g
     Lean Six Sigma                             1         Excessive-Profits Fishbone                         29
     Spare Parts Pricing History                2         New Long-Term Contract Fishbone                    30
     Action to Address Problem                  4
     One-Pass Pricing – Six Sigma Project       5    Improve Tollgate
                                                          Mistake Proofing the Process                       31
Results                                                   Baseline Summary After Repricing                   33
     Overall                                    6         What Results Did We See?                           34
     Sample Results                             7         Comparison of Before and After Results             35
     Negotiated Results                         8         Sample Results – Johnson Transformation            36
     Prices Were Reduced                        9
     DLA Overprocured Automated Orders         11    Control Tollgate
                                                          Process Control/Reaction Plan                      37
Define Tollgate                                           Standard Operating Procedures and Training Plans   38
     Charter & Timeline                        12         Updated Benefits Estimate                          39
     Cross-Functional Team                     13
     Business Impact                           14    The DoD Lean Six Sigma Tollgate                         40

Measure Tollgate                                     Appendices
    Measure the Problem                        15        A. Acronyms and Abbreviations                       41
    As-Is Process Map                          16        B. Statistical Definitions                          42
    To-Be Process Map                          21
    Operational Definitions                    26
    A I Process
    As-Is P       B
                  Baseline
                        li SSummary            27
    As-Is Process Defects per Opportunity      28
                                             Lean Six Sigma
          Background
              g
Definition. Lean Six Sigma (LSS) is a business improvement methodology which combines (as the name implies) tools
from both Lean Manufacturing and Six Sigma. Lean Manufacturing focuses on speed, and traditional Six Sigma focuses
on quality. The result of combining the two is better quality faster.

DoD Establishment. On April 30, 2007, the Deputy Secretary of Defense established the DoD-wide continuous
process improvement (CPI)/LSS Program Office. Furthermore, the Deputy Secretary declared that aggressive
implementation of CPI/LSS within all levels of DoD would go a long way to support business transformation efforts and,
as with other parts of DoD’s ongoing culture change, all levels of DoD’s organization need to be involved with CPI/LSS.

DoD CPI/LSS Program. The LSS Program Office uses a disciplined performance improvement methodology to
improve the efficiency and effectiveness of DoD business operations supporting the warfighter. The office drives DoD-
wide performance improvement activities, tracks results, provides training, assists DoD in the establishment and growth
of its p
       program,
          g   , and captures
                      p      the best business p
                                               practices enterprise-wide.
                                                              p           The LSS Program
                                                                                       g     Office helps
                                                                                                       p DoD
Components achieve their goals.

Five-Step Data-Driven Process. LSS uses a modern problem-solving method, Define-Measure-Analyze-Improve-
Control (DMAIC). DMAIC uses data to:
     confirm the nature and extent of the problem,
     identify true causes of problems,
     find solutions that evidence shows are linked to the causes, and
     establish procedures for maintaining the solutions even after the project is done.
The purpose off the Define
                         f   phase is for
                                       f the team to agree on what the project is. In the Measure phase, teams evaluate
the existing measurement system, observe the process, gather data, and map the process in more depth. In the
Analyze phase, teams develop theories of root causes, confirm the theories with data, and finally identify the root
cause(s) of the problem. In the Improve phase, teams identify a range of possible solutions, review existing best
practices to see if any
p                      y can be adapted
                                    p    to the situation,, develop
                                                                  p criteria for selecting
                                                                                         g a solution,, pilot
                                                                                                        p     the chosen solution,,
and plan for full-scale implementation. The purpose of the Control phase is to make sure that any gains a team makes
last. During the Control phase, teams document the new and improved process, train everyone, set up procedures for
tracking key “vital signs,” hand off ongoing management to the process owner, and complete project documentation.

                                                               1
                 Spare Parts Pricing History
     Background
         g


History of Sole-Source Spare Parts Pricing. Over the past 50 years,
C
Congress   andd the
                 h GGovernment hhave tried
                                       i d various
                                              i    methods
                                                      h d to avoidid
paying excess prices and profits for sole-source spare parts. From the
Truth in Negotiations Act (TINA), to spare parts breakout, to commercial
pricing, the overarching goal has been to reduce prices for spare parts
whether using cost-based or price-based acquisition procedures.

Spare Parts Pricing Problems. In the 1980s, various audits,
congressional investigations and media disclosures indicated that DoD
paid
   id excessive
            i prices
                 i    ffor many spare parts
                                         t and
                                             d supplies,
                                                    li   often
                                                          ft sole-
                                                                 l
source procurements from contractors who did not manufacture the
items. These disclosures caused both DoD and Congress to take
action to improve procurement prices on DoD spare parts.




                                  2
             Spare Parts Pricing History (cont’d)
     Background
         g


DoD OIG Audits. Starting in 1998, various audits by the DoD OIG
again showed that DoD was paying excessive prices for many spare
parts and supplies.

One of the audits, DoD IG Report No. 99-218, “Sole-Source
Noncommercial Spare Parts Orders on a Basic Ordering Agreement,”
July 27, 1999, found that DLA was not able to effectively negotiate fair
and
  d reasonable
            bl prices
                   i   ffor sole-source
                              l         noncommercial
                                                    i l spare parts
                                                                 t
procured from Allied Signal (now Honeywell) and DLA paid 18 percent
more than fair and reasonable prices.




                                   3
                 Action to Address Problem
  Background
      g
DoD Sponsored Rapid Improvement Team to Address Pricing Problems. In
June 1999, the Director, DLA, and Deputy Under Secretary of Defense (Acquisition
Reform) chartered a rapid improvement team for the development of a new “strategic
                                                                         strategic
supplier alliance” between DLA and Honeywell.

Part prices were negotiated on a Federal Acquisition Regulation Part 15 contract with
Cost Accounting Standards(CAS)/TINA waivers using the one-pass pricing process
(escalation provisions) but were not repriced for the life of the 12-year contract. The
one-pass pricing process involved real-time advice from DLA Cost/Price, DoD OIG,
DCAA and
DCAA,     d DCMA tto th
                      the DLA contracting
                                  t ti officer
                                            ffi    reviewing
                                                      i i th   the H
                                                                   Honeywellll costt
proposal. The process provided a high level of confidence in the negotiated prices,
and costs were examined before being placed on long-term contracts. The process
provided complete transparency of Honeywell costs and the basis for those costs,
which allowed the Government to price parts at the most economical order quantities,
to assure the best value for DoD and the taxpayer.

Before the DLA-Honeywell Strategic Supplier Alliance contract was awarded in June
2000, most of these sole-source spare parts were procured on a basic ordering
agreement (individual orders) under the cost or pricing threshold. From 1996 to
1998 DLA issued 5
1998,             5,767
                    767 delivery orders to Honeywell
                                           Honeywell, totaling $115
                                                               $115.55 million
                                                                       million.



                                       4
         One-Pass Pricing – Six Sigma Project
  Background
Benefits of the One-Pass Pricing Process. The one-pass pricing process resulted
in two significant benefits:
    Prices were reduced and stabilized using current cost data.
    Administrative costs were reduced for both Honeywell and DLA.

Six Sigma Project. To address concerns with the length of the contract (12 years)
without a significant pricing review and the effectiveness of the one-pass pricing
process the project was initiated to determine whether actual costs had increased in
process,
line with inflation. The purpose of escalation clauses is to provide adjustments to the
contract price as a result of changes in the national economy, so that the contractor
will realize neither economic benefit nor economic loss because of economic
fluctuations.
fluctuations

We employed DoD LSS Program Office templates and Minitab statistical software to
complete this project. To obtain additional information about this project, including
copies of the official DoD LSS final product and documents for each DMAIC phasephase,
please send an e-mail to audacm@dodig.mil.

See Appendix A for acronyms and abbreviations and Appendix B for statistical
d fi iti
definitions used
               d th
                 throughout
                       h t th
                            the d
                                document.
                                       t




                                          5
                              Overall
     Results

The project resulted in significant improvements to the strategic supplier
                     y
alliance with Honeywell.   Specifically,
                             p        y the project
                                            p j     recommended a
repricing clause (at the 3- to 5-year mark), which will help ensure that
pricing is fair and reasonable over the long-term contract. The project
also recommended using a statistical sample to effectively reprice
thousands of items.

Overall, the project reduced prices on 348 sole-source spare parts
valued at about $100.8 million (based on 3-year sales) to $91.3 million,
or by about $9.5 million or 9.4 percent for future procurements. This
should generate $3.16 million in annual recurring savings. After
completion of the project, prices were shown to have increased less
((11.7 percent)
        pe ce ) than
                  a the e inflation
                              a o rate
                                    aeo over
                                          e a 19-year
                                               9 yea pe
                                                      period,
                                                          od, a
                                                              and
                                                                d
 significant administrative savings have been obtained by DLA and
 Honeywell. The project also identified $3.2 million of overprocured
 automated orders,
             orders which were canceled.
                                   canceled


                                   6
                                                Sample Results
       Results
As shown below, we selected 348 parts from the population of
2,826 items to reprice. After we repriced the sample items, the
projected savings
          savings, at a 90
                        90-percent
                            percent confidence interval
                                                interval, ranged from
$3.05 million (1.8 percent) to $16.97 million (10.3 percent), with a
midpoint of $10.01 million (6.1 percent), from the population value of
$165.15 million.
       Sample selection
                                                                 Population ($ millions)
               Stratum                           Sample            Items             Value*
                                                                                     Value
       >$250,000                                    118               118          $ 80.00
       $100,000–$249,999                            100              246              38.93
       $25,000–$99,999                              100              623              31.92
       <$25 000
       <$25,000                                      30            1 839
                                                                   1,839              14 30
                                                                                      14.30
       Total                                        348            2,826           $165.15


       Stratified variable projection with 90-percent confidence interval ($ millions)*

             Lower Bound                          Point Estimate                     Upper Bound
           Value     Savings                    Value      Savings                Value      Savings
            $148.17           $16.97            $155.14            $10.01         $162.10        $3.05
                            -10.3%                               -6.1%                        -1.8%
       *Slight rounding inconsistencies exist in calculations.



                                                                   7
                                             Negotiated Results
            Results
The prices for the 348 parts were reduced from $100.8 million (based
on 3-year sales) to $91.3 million, or by $9.5 million or 9.4 percent for
future procurements.
       procurements The negotiated results fit within the sample
projection at the 90-percent confidence level discussed on the
previous page. The table below shows the results separated by
dollar value.

                                                        Honeywell Contract                          Savings
           Dollar Value              Items               S l *
                                                         Sales*         R
                                                                        Repriced
                                                                            i d                  Amount
                                                                                                 A             Percent
                                                                                                               P
            ≥$250,000                  118             $79,997,330     $72,216,670              ($7,780,660)       (9.7)
      $100,000–$249,999                100               15,552,298            13,995,737        (1,556,561)      (10.0)
        $25,000–$99,999
        $25,000 $99,999                100                4,942,289              4,749,383        (192,906)        (3.9)
            <$25,000                    30                  278,381                   308,337        29,955        10.8
   Total                              348             $100,770,299            $91,270,127       ($9,500,172)       (9.4)
 *We used 2006–2008 Honeywell sales data to calculate the Honeywell contract price.




                                                                    8
                                     Prices Were Reduced
   Results

Current cost-based contract prices for 329 of 348 items (19 items
could not be traced to a previous contract) were 11.7 percent lower
than previous contract prices (on average, 19 years old) that were
inflated to today’s dollars.

                                                   Percent                                  Total Price1
     Range of Percent                                     Total            Previous           Honeywell        Percent
   Increase (Decrease)               Items     Items      Price           Contract2             Contract      Difference
               100+                     44        13.4      14.3          $ 1,514,613          $ 4,051,529           167.5
               50-99                    32         9.7       8.8             1,408,397            2,495,951           77.2
                0-49                    73        22.2      21.3             4,890,224            6,026,095           23.2
               (1 98)
               (1-98)                 180         54 7
                                                  54.7      55 6
                                                            55.6            24 258 847
                                                                            24,258,847           15 735 799
                                                                                                 15,735,799          (35 1)
                                                                                                                     (35.1)
               Total                  329       100.0     100.0           $32,072,0803         $28,309,374           (11.7)

1Calculated   based on 2009 Annual Demand Quantities provided by the DLA Office of Research and Resource Analysis.

2Previous contracts used in the comparison were awarded between 1985 and 2007 and were not the Honeywell Strategic
Supplier Alliance contracts. The previous contracts were awarded an average of 19 years before the 2010 Honeywell contract
prices and were inflated using the Bureau of Labor Statistics Index for Aircraft Engine and Engine Parts Manufacturing.
3Slight   rounding inconsistencies exist because auditor calculations were based on two decimal places.




                                                               9
                  Prices Were Reduced (cont’d)
   Results

         Comparison of Unit Prices for Sole-Source Honeywell Spare Parts
                                   Constant 2010 dollars
                             95% Confidence Interval for the Mean
         3500


         3000


         2500
 Datta




         2000


         1500


         1000
                1987-1993            1994-1999            2000-2009              2010
191 items were procured in each of the reporting periods.
One-pass pricing, as part of the DLA/Honeywell contract, was used for the last 2 reporting periods.


                               PRICES BEAT INFLATION.


                                                 10
                      DLA Overprocured Automated Orders
                 Results ((other))
                                                  Quantity
Delivery               National Stock                                                                 Realized
 Order       Part         Number        Ordered Available    Canceled    Unit Price     Total Price   Savings                     Notes
 7371      365049-5   2835003033543       77       51           0         $736.37          $37,555                 Shipped
 6809      364920-7   2835003095712       24       24           0         2,398.28          57,559                 Due to ship 4/18/2009; cannot
                                                                                                                   cancel
 7495      364920-7   2835003095712       15        15          15           2,398.28       35,974      $35,974    OK to cancel; requested modification
 2943      366931-2   2835014657679      242       122         122           1,370.57      167,210      167,210    Shipped 75; Can cancel 122
 3565      366931-2
           366931 2   2835014657679      313       313         313           1 428 13
                                                                             1,428.13      447 005
                                                                                           447,005      447 005
                                                                                                        447,005    OK to cancel; requested modification
 5713      366931-2   2835014657679      245       245         245           1,428.13      349,892      349,892    OK to cancel; requested modification
 6430      366931-2   2835014657679      38        38           0            1,482.40       56,331                 Shipped
 6665      366931-2   2835014657679       69       69           0            1,482.40      102,286                 Scheduled to ship January through
                                                                                                                   March; cannot cancel
 2265    367857-4     2840014663026      338       338         201           7,002.70    2,366,913     1,407,543 Reduced by 201 and closed
 6300    367857-4     2840014663026       96        96          96           7,133.29      684,796       684,796 Canceled already
 6661    367856-3     2840014724842      151       80           0            5,809.06      464,725               Due to ship 1/15/09; cannot cancel
Various 3822536-1     2915014874603       19        19          0            2,405.99       45,714               Shipped 4 1/16/09; cannot cancel
Various 3822536
        3822536-11    2915014874603       40        40          40           2 286 49
                                                                             2,286.49       91 460
                                                                                            91,460        91 460 OK to cancel; requested modification
                                                                                                          91,460
 6342    365357-1     3020003141489      132       132         132             321.49       42,437        42,437 Confusion on this one; do not see an
                                                                                                                 order
 6066      367893-1   4820014791916       51       29           0             752.67        21,827                 Shipped 31 due to ship 20 2/26/09;
                                                                                                                   cannot cancel
 6217      367893-1
           367893 1   4820014791916      120       120          0             752.67
                                                                              752 67        90,320
                                                                                            90 320                 D tto ship
                                                                                                                   Due     hi 3/13/09
                                                                                                                               3/13/09; cannott cancell
 6264      367893-1   4820014791916       86        86          0             752.67        64,730                 Due to ship 3/20/09: cannot cancel
 6296      367893-1   4820014791916        2        2           0             752.67         1,505                 Due to ship 3/23/09; cannot cancel
                                                                                        $5,128,237    $3,226,317

                               $
                               $3.2 million of overprocured orders were canceled.


                                                                        11
                                                      Charter & Timeline
              Define Tollgate
                         g
                                            Team Members

                   Name                    Role                Affiliation             RACI
                                  Sponsor/Champion           DOD OIG               Approver


                                  Process Owner              DLA Aviation/         Approver
                                                             Honeywell

                                  Black Belt                 DOD OIG               Responsible
                                                                                                                                      Need
                                  Master Black Belt          OSD-DCMO              Responsible
                                                                                                                                   factual/data
                                  Project Charter                                                                                  support that
                    Prices for spare parts (2,826) on long-term contracts with Honeywell have increased
Problem
Statement
                    due to escalation indices and other contract terms, and no provisions were included in
                    initial contract for rebaselining prices on the 12-year contract.
                                                                                                                                  prices are fair
Business Case       1)     Attain fair and reasonable prices for Honeywell parts.                                                      and
                    2)     Sh
                           Show   effectiveness
                                   ff ti        off one-pass pricing.
                                                               i i
                    3)
                    4)
                           Demonstrate whether certified data are required for fair and effective pricing.
                           Document lessons learned = contractors can decrease cost with incentive of long-term
                                                                                                                                   reasonable.
                           contract.
                    5)     Replicate new contract pricing methodology for future contracts.
                    6)     Achieve administrative cost savings (avoidance) with new methodology for future
                           contracts.
                    7)     P
                           Prove  concept.t

Goal statement      To determine if the one-pass pricing concept is effective for DoD to procure sole
                                                                                                                            Project Timeline
                    source items at fair and reasonable prices.
                                                                                                                   Phase      Planned*        Actual      Status
Unit                Price for one Honeywell sole-source spare part.
                                                                                                                  Define      15 Jan 09     21 Jun 10
                    Anyy part
                         p whose price
                                     p  exceeds p
                                                previous yyear’s p
                                                                 price + inflation(+/-15%)
                                                                                  (      ) or whose profit
                                                                                                    p
Defect              level is excessive.
                                                                                                                  Measure     30 Apr 09     21 Jun 10
Customer            Part price that does not exceed previous year’s price + inflation. In addition, profit
Specification(s)    cannot be unreasonable/excessive.                                                             Analyze     31 May 09     21 Jun 10
                    Repricing at option year based on escalation and those parts identified by Honeywell          Improve     30 Jun 09     21 Jun 10
Measure Start       or DLA with large price increases
                                            increases.

                    Exercise option price; contract officer signs modification.
                                                                                                                  Control     31 Jul 09     22 Jun 10
Measure Stop
                    DLA long-term contracts with Honeywell for 2,826 parts (mechanical sites 3-year               * Project was suspended in April 2009 because
Scope               demand activity).                                                                             Master Black Belt was working in Kuwait.
                                                                                                                  Project restarted February 2010.
                                                                                  12
                        Cross--Functional Team
                        Cross
   Define Tollgate
              g
                                                 Team Members
Name                            Role                        Affiliation                  RACI*
                                Sponsor/Champion            DOD OIG                      Approver


                                Black Belt                  DOD OIG                      Responsible


                                Master Black Belt                            p y Chief
                                                            OSD, Office of Deputy        Responsible
                                                              Management Officer
                                Process Owner               DLA Aviation/                Approver
                                                            Honeywell
                                One-Pass
                                One Pass Pricing            DLA Aviation                 Approver
                                Contract/Pricing            DLA Aviation                 Approver
                                  Technical Advice
                                Compliance                  Honeywell                    Contributor
                                Contracting                 DLA Aviation                 Contributor



                                Pricing                     Honeywell                    Contributor
                                Statistical Sampling        DOD OIG                      C t ib t
                                                                                         Contributor
                                Compliance                  DPAP                         Inform
                                Compliance                  DLA Aviation                 Inform
                                Pricing                     Honeywell                    Inform
*Responsible, Approver, Contributor, or Inform




                                                       13
                        Business Impact
      Define Tollgate
                 g



• This Six Sigma project is expected to determine the
  viability of using a one-pass pricing process to procure and
  sustain fair and reasonable prices for sole-source spare
  parts.

• The project is also expected to provide a viable
  methodology for repricing thousands of items on long-term
  contracts.
     t t

• W
  We expectt the
               th contractor
                     t t to  t improve
                               i        efficiency
                                         ffi i     based
                                                   b   d on
  the long-term contract arrangement, and rebaselining will
  result in reduced contract prices by 6–8 percent
                                            percent.

                              14
                                      Measure the Problem
               Measure Tollgate
                           g



                    Measure                                                   Measurement Plan
Primary Metric     Price fluctuation:
                   Comparison of prices on current               What data           2006 through 2008 (sales) year-to-
                   long-term contract to contract                collected?          date shipped spare parts quantities
                   prices for sampled items after                                    and dollar values from Honeywell,
                                                                                                                 y    ,
                   repricing (percent change)                                        DLA Office of Research and
                                                                                     Resource Analysis (DORRA) data,
                   As-is price fluctuation averaged 21.3                             OIG sample, contract prices
                   percent increase from initial contract        Who                 DoD OIG
                   price (in about 6 years)                      collects/reviews?
                                                                   ll t / i      ?

Data Source        Honeywell Sales System, DLA                   Where are data      Honeywell and DLA
                   Requisition Data, Contract Prices,            located?
                   Sample                                        When will data be   Preliminary data already collected;
Time Period        2006, 2007, and 2008 data                     collected?          may need to verify contract prices
Analyzed                                                         What to do with     Sample selected from current data
                                                                 data?               and current prices for sample
Gauge Issues       Sample selection errors                                           items will be compared to
                                                                                     renegotiated
                                                                                         g         prices
                                                                                                   p
Gauge Correction   Further analysis of data to minimize
                   impact. Recompute and increase
                   sample size (Strata 4)


                   Prices should be within +/- 15 percent of initial contract price.


                                                            15
Measure Tollgate
            g




            As-Is Process Map

      One-Pass Pricing Without Repricing Step
              and Sample Approach




                         16
Measure Tollgate
            g




                   17
Measure Tollgate
            g




                   18
Measure Tollgate
            g




                   19
Measure Tollgate
            g




                   20
Measure Tollgate
            g




           To-Be Process Map

        One-Pass Pricing With Repricing Step
              and Sample Approach




                         21
Measure Tollgate
            g




                   22
Measure Tollgate
            g




                   23
Measure Tollgate
            g




                   24
Measure Tollgate
            g




                   25
                      Operational Definitions
        Measure Tollgate
                    g


• Fair and reasonable p
                      price – A p
                                price calculated based on
  Honeywell’s cost and negotiated profit and service fees.

• One-pass pricing – A collaborative, real-time review of proposal
  costs to establish fair and reasonable price by Honeywell
  program managers and pricers, DLA contracting officers and
  cost/price analysts, and other appropriate support
  organizations.
  organizations




                                26
                                    As-Is Process Baseline Summary
                  Measure Tollgate
                              g


•The As-Is Process has a                                              Summary
                                                                            y Difference Before Repricing
                                                                                                  p wog Repricing
                                                                      Summary     for Difference
non-normal distribution
                                                                                                                                       A nderson-D arling N orm ality T est
with the P-value <0.05.                                                                                                                     A -S quared       34.04
                                                                                                                                            P -V alue <       0.005
•The mean is 21.294                                                                                                                         M ean            21.294
percent and the median
percent,                                                                                                                                    S tD ev          30.235
                                                                                                                                            V ariance       914.146
is 18.188 percent.                                                                                                                          S k ew ness      4.4498
                                                                                                                                            K urtosis       34.3258
•The range is 377.495,                                                                                                                      N                   344

                                                                                                                                            M inim um       -64.390
and the standard                                                                                                                            1st Q uartile     6.810
d i i iis 30
deviation   30.235.
               23                                                                                                                           M edian          18.188
                                                                                                                                            3rd Q uartile    26.196
                                                    -60          0      60          120        180         240          300                 M axim um       313.105
•At a 95 percent                                                                                                                      95% C onfidence I nterv al for M ean
confidence level, the                                                                                                                       18.087           24.500

average price has                                                                                                                    95% C onfidence I nterv al for M edian
                                                                                                                                            17.271           21.812
increased between 18.087                                                                                                             95% C onfidence I nterv al for S tD ev
and 24.500 percent.                                                   9 5 % C o nfide nce I nte r v a ls
                                                                                                                                            28.132           32.680
                                            Mean
•The increase in prices
                                           Median
shows
 h      th
        thatt a repricing
                    i i
mechanism is needed in                                    18.0       19.5           21.0         22.5            24.0         25.5


future contracts.
                                         Part prices have increased 21.294 percent (mean) since the initial
                                                      contract price
                                                               price, due to escalation indices.
                                                                                        indices
 Note: Please refer to Appendix B for definitions of statistics shown on this page.


                                                                               27
                         As-Is Process Defects Per Opportunity
                 Measure Tollgate
                             g
     We measured the defects (price has experienced more than 15 percent
     increase or decrease) per opportunity (DPO) and found that only 40 percent
     of the As
            As-Is
               Is Process was performing within specification limits (yield) while
     roughly 60 percent was outside of the parameters, or a defect. As a result, a
     repricing mechanism in the process is needed to improve control of spare part
     prices
     prices.
                                                         Sigma Level - Before Repricing

                                                Total Opportunities
                                                       pp                             344
                                                                                      3

                                                Total Defects                         206

                                                DP10K Score                          5,988    DP10K Score

                                                Yield                                  40%    Yield

                                                DPO                                  0.5988   DPO

                                                DP10K                                5988 4
                                                                                     5988.4   DP10K


                                                Sigma                                1.250    Sigma




Note: Please refer to Appendix B for definitions of statistics shown on this page.




                                                                             28
                                     Excessive-Profits Fishbone
          Analyze
              y Tollgate
                    g


                                             Honeywell
                                              HoneywellLong-term   contract
                                                        long-term contract
                                     Measurements                                      Perso nnel
                         FP
                            ev A s
                            G lu a




                                                                e v ne y id e ll
                                                                C n i f el ify
                              ov t e




                                                                 d o on e s " l
                                                                 H sn' t w e s
                               a




                                                                  an m l
                               R




                                                                   o
                                                                   e w nt
                                                                    re
                                                                    H ice
                                                                                               I nexperience
                                 td H




                                                                    e y os
                                                                      pr




                                                                      M or
            ac
            D al




                                   o e o ne
              on co




                                                                        ak e
               tu




                                      sn y
                  't sts




                                                                          e
                    re




                                        't w




                                                                             to
                      v




                                                                                Bu
                        i si
                            t




                                                                                  y
                                             el         U naw are of price                          H oney w ell
                                                l       changes since
                                                        baseline


                                                                                                                               Excessiv e
                                                                                                                               profits o n
                                                                                                                               so le-source
                                                                                                                               parts



                                                                                                    H oney w ell outsourcing
                                                                                                    drops their costs
                                                     N ew ly designed contract ty pe

                                                    N ew LT C language did not allow
                                                    rev isiting baseline prices

                                         Methods                                        Po licies




Note: A fishbone is a tool used to identify possible causes of a problem by representing a relationship between some effect and
its possible cause.

                                                                         29
Considerations for New Long-Term Contract Fishbone
            Analyze
                y Tollgate
                      g

                                                            New
                                                            New Long  termcontract
                                                                long-term  Contract
                    Policy                    Benefits                                                                  C oordination




                                                                                                                      D



                                                                                                                                     SA
                                                           Manhours




                                                                                                       D



                                                                                                                      PA




                                                                                                                                      SC
                                                                                                       LA




                                                                                                                          P
                                                                                                                                                CAS/TINA Waivers




                                                                                                   D
                                                                                                     LA
                               DVD 1-3 days                        Time




                                                                                                              D
                                                                                                       H

                                                                                                               PA
                                                                                                       Q
                                                                                                          s

                                                                                                                  P
                                                                                                                                                      Contract Length




                                                                                                                        C
                                                                                                                          os
                                                                                                                             t
                                                                                                          H
                                                                          Incentivize Honeywell to




                                                                                                           on




                                                                                                                        &
                                                                                                                          Pr
                                                                          Drop costs




                                                                                                              ey
                                                                                                                                                                                 C onsideratio




                                                                                                                              D

                                                                                                                             ic
                                                                                                                w


                                                                                                                                PA

                                                                                                                                in




                                                                                                                                                      D
                                                                                                                 el




                                                                                                                                  g




                                                                                                                                                      LA
                                                                                                                                                                                  Considerations




                                                                                                                                               IG
                                                                                                                    l


                                                                                                                                   P
                                                                                                                                                           Pricing Methodology
                                                                                                                                                                                 ns for New
                                                                                                                                                                                  for new long-
                                                                                                                                                                                 Long Term
                                    In
                                      te
           Li
           W




                                                                            Evaluate FPRAs
                                                                                                                                                                                 Cterm  contract
                                        gr
              ne
               hi




                                         St rs
                                         La




                                          ity




                                                                                                                                                                                   ontract
                  C l




                  ch
                  Le




                  s




                                            ra
                                             ye
                    on




                                              t if
                    ve




                                               of
                     Pr
                      f id




                                                   ica
                        od




                                                    D
                                                     Po
                          en




                           uc




                                                      tio


                                                      at
                                                       w
                             ce




                                                        a
                              t



                                                         er




                                                         n




                                                                      Sampling



                                                                                                                      C
                                                                                                                        on
                                                                                                       F




                                                                                                                                          Vi
                                                                                                        lex



                                                                                                                          st



                                                                                                                                          ce
                                                                                                           ibi



                                                                                                                            ra
                                                                    Length of Contract




                                                                                                                                           C
                                                                                                                              in
                                                                                                              lit




                                                                                                                                               os
                                                                                                                                ts
                                                                                                                  y
                                                                                                                                                      Delivery T ime




                                                                                                                                                  t
   R




                                                                   Share Periodic Cost Savings
    ev
       is
          it




                                                               Develop SOP
           B




                                                                                   Pe
            as




                                     Le




                                                                                     na



                                                                                               no
                                                                                               C rf
               e
                lin




                                                                                                on o
                                       ve




                                                                                       ltie



                                                                                                 np




                                                             Training Awareness
                    e
 L




                                                                                                  s id rm
                                         l
                                         s




                                                                                           s
  ar




                                                                                                   e
                   Af
    ge




                                         of




                                                                                                      e r anc
                                                                                          if
                     te




                                                                                                                           T
                                                                                                         no




                                                                                                         at e
                               Sa




                                              Su




                                                                                                                            im
    #




                       r




                                                                                                           ion
                                                                                                            t
                        X




                                 m




                                                                                                                              el
         ite




                                                 pp




                                                                                                              m
                        yr




                                  pl




                                                                                                                                 in
            m




                                                   o




                                                                                                               fo
                                   in




                                                                                                                et




                                                                                                                                   es
                           s




                                                    rt




                                                                                                                 r
           s




                                     g




                                                                                                                                      s



                                                         Pricing                                                                           Meet DLA Metrics



                                         Procedures                                                           C ontract Prov isions




                                                                                                       30
                             Mistake Proofing the Process
           Improve
             p     Tollgate
                       g

•   Solutions:
        Before adding parts to the contract, match Honeywell historical sales data to DLA historical demand and forecasted
         demand data and review current inventory levels (Step 2 Honeywell SOP and Step 4 DLA SOP)  SOP).
                Will prevent negotiating prices for parts that will not be purchased.
                Will ensure proper usage is considered when negotiating prices.
                Will improve detection of system automatic ordering errors (identified and canceled
                 $3.2 million of overprocured
                 $                   p         orders).
                                                      )
        When selecting the sample, validate that means for the sample and population are within an appropriate range. If
         not, increase sample size to minimize the risk of sampling error. Ensure that the confidence level of the sample is
         appropriate (90 or 95 percent). Incorporate IG input to the sample selection. DLA-Honeywell agree to sample
         methodology. Recommended approach to select parts to price is 100 percent of high-dollar parts; random sample
         50 percentt off the
                         th mid-to-high-dollars
                             id t hi h d ll     parts;
                                                   t random
                                                        d    samplel 33 percentt off th
                                                                                     the llow-to-mid-dollar
                                                                                              t   id d ll parts;
                                                                                                             t andd random
                                                                                                                       d
         sample 20 percent of the low-dollar items (Step 3 Honeywell SOP and Step 5 DLA SOP).
                Will minimize sampling error.
        To ensure accurate pricing worksheets, Honeywell will provide to DCMA to verify rates and profit before OPP
         sessions (Negotiated Forward Pricing Rates Agreements – Step 4 Honeywell SOP and Step 9 DLA SOP).
        To minimize errors with Honeywell cost data, DLA will request a DCMA/DCAA review of Honeywell’s cost-
         estimating system before next contract or repricing. Review most recent report to determine whether the system is
         approved and become aware of any problems (Step 7 DLA SOP).
        To ensure negotiated prices are correct, a DLA cost/price analyst will review final price worksheets (Step 9 DLA
         SOP).
        OSD will peer review the contract length and terms if over $1 billion (September 29, 2008, memorandum, Defense
         Procurement and Acquisition Policy).




                                                                31
       BEFORE
  Improve
    p     Tollgate
              g

                          AFTER

1.Consolidated functions/combined steps.
2.Eliminated CAS waiver process.
3.Added repricing effort and sample approach.
3.Added repricing effort and sample approach.




                     32
                      Baseline Summary After Repricing
       Improve
         p     Tollgate
                   g

                                   Summary for repricing difference




Individual p
           part prices
                p      were reduced on average
                                            g 8.237 percent
                                                     p         (mean).
                                                               (    ) In total,
              prices were reduced by 9.4 percent or $9.5 million.
Note: Please refer to Appendix B for definitions of statistics shown on this page.

                                                                   33
                                              What Results Did We See?
                  Improve
                    p     Tollgate
                              g
After repricing, prices were reduced, and the process had improved control of spare part
prices as the yield increased from 40 to 82 percent and DPO decreased from 60 to
17.5 percent.
          Total Defects Before Repricing                                             Total Defects After Repricing
                        Sigma Level - Before Repricing                                                       Sigma Level

               Total Opportunities          344                                        Total Opportunities            348

               Total Defects                206                                        Total Defects                    61

               DP10K Score                 5,988    DP10K Score                        DP10K Score                   1,753    DP10K Score

               Yield                         40%    Yield                              Yield                           82%    Yield

               DPO                         0.5988   DPO                                DPO                           0.1753   DPO

               DP10K                       5988.4   DP10K                              DP10K                         1752.9   DP10K

               Sigma                       1.250    Sigma                              Sigma                         2.433    Sigma



 Key Metrics                                                      Before              After                                   Delta
 Total Prices (excluding inflation)                               21.3% Increase      11.9% Increase                          -55.9%
 Price Increases above 15%                                        59.88%              17.53%                                  -42.35%
 Price Decreases more than 15%                                    2.33%               49.14%                                  +46.81%

         Addi a repricing
         Adding     i i   clause
                           l     to
                                 t the
                                    th long-term
                                       l    t    contract
                                                    t   thhas improved
                                                              i      d the
                                                                       th process
                          and reduced DOD prices for spare parts.
Note: Please refer to Appendix B for definitions of statistics shown on this page.

                                                                             34
                Comparison of Before and After Results
      Improve
        p     Tollgate
                  g
After repricing, the median change in prices was a reduction of more than
14.5 percent for the 348 sample items.
                          Indi
                          Individual
                           Indi id al
                                   al Value
                           Individual Val ee Plot
                                      Value
                                      Val    Plotof
                                                  ofDifference
                                                     Diffe enceBefore
                                                     Difference woo Repricing,
                                                                    Rep icing Repricing
                                                                      RepricingRep
                                                                      Repricing,    icing Difference
                                                                                 RepricingDiffe  ence
                                                                                           Difference
              300


              200
       Data
          a




              100


                0


              -100
               100
                                 D ifferenceBefore
                                Difference   w o Repricing
                                                   Repricing                              Repricing D ifference

                                 Boxplot
                                 BoxplotofofDifference
                                             DifferenceBefore Repricing,Repricing
                                                         wo Repricing,   Repricing Difference
                                                                                   Difference

              300


              200
       Data




              100
                                                      18.188                                                 14.5496
                                                                                                            -14.5496
                0


              -100
                                 D ifference
                               Difference    w o Repricing
                                          Before Repricing                                Repricing D ifference


               Outliers warrant investigation – price fluctuations are not stable.
     Note: Please refer to Appendix B for definitions of statistics shown on this page.


                                                                 35
             Sample Results – Johnson Transformation
             Improve
               p     Tollgate
                         g
The process capability analysis shows that the majority of prices were reduced during the repricing
effort. The observed performance shows that 49 percent of the items were reduced by more than 15
percent, while only 17.5 percent had increased more than 15 percent.




Note: Please refer to Appendix B for definitions of statistics shown on this page.

                                                                         36
                                             Process Control/Reaction Plan
                 Control Tollgate
                             g
PROJECT NAME                                                                                      BLACK BELT                                   DATE
    DLA-Honeywell Long-term Contract                                                                                                                                4/12/2010
                                                                                                  MASTER BLACK
PROJECT SPONSOR                                                                                   BELT




                                                                                                    Applicable Control Charts and Metrics
 Control
                                             Responsible                                                    Upper
 Action            Control Action                                                                  Target
                                              Individual        Freq.         Process Step                  Control      Lower Control Limit           Reaction Plan
 Number                                                                                            Value
                                                                                                             Limit

           Complaints from other suppliers                  During award       Identify Sole-                                                   Evaluate complaint, if valid
    1                                           SCG                                                 0.0        1.0               0.0
                (synopsis, award)                             process          Source Parts                                                     remove item from contract.
                                                                                                                                                   Determine where the
                Tracking timeline for                       During pre-          Review                                                           document stands in the
    2                                           SCG                                                100.0
                procurement/reviews                        award process        Solicitation                                                     approval process. Adjust
                                                                                                                                                 milestones and followup.
                                                                                                                                                                followup

                                                            During pre-        Staff/approve
    3           FAR/DPAP guidance               SCG                                                100.0       1.0               0.0           Re-evaluate contract strategy.
                                                           award process       TINA Waiver

                                                                                                                                               Resolve discrepancies before
            Reconciliation of forecast and                  Prior to OPP      Identify items to                                                  one-pass pricing sessions,
    4                                         SCG/Hon                                              100.0
                      demand                                  session               price                                                        remove, or move items to
                                                                                                                                                       future sessions.
                                                                                                                                                   Verify that there is no
                                                                                                                                               significant sampling error and
              Random Sample /review                        Before repricing
                                             DLA analyst                       Sample Plan         100.0                                        selection plan is statistically
                   Honeywell                                    items
                                                                                                                                               sound. Obtain IG assistance if
                                                                                                                                                          necessary.
                                                                Every
                                                                                 R i
                                                                                 Review
                                                            procurement                                                                         Correct for noted errors in
    5              Track timeline               SCG                             PNM/Award          100.0
                                                            until award is                                                                     documentation and resubmit.
                                                                                 Package
                                                                made
                                                           Every 5 years or                                                                    Ensure sampling is adequate
    6      Do a new sample (what triggers)                   as contract       Reprice items       100.0                                       and accurate and appropriate
                                                SCG           requires                                                                         coverage of high-dollar items.

                                                           Prior to placing
             Contract coverage (desired                                     High-risk (low/no                                                  Re-evaluate contract strategy
    7                                                      these items on
                      outcome)                                               demand) items                                                     for these items.
                                                               contract
                                                SCG                                                100.0


                                                                                           37
    Standard Operating Procedures and Training Plans
          Control Tollgate
                      g

              Standard Operating Procedures (SOPs)
  SOPs Requiring Revision                   Responsible                Status
Honeywell SOP                       Lead:                 Completed (June 2010)


DLA SOP                             Lead:                 Completed (June 2010)




                                     Training Plans
      Required Training                     Responsible                Status
DLA on-the-job one-pass pricing                           Ongoing (continual)
training (send senior
experienced leaders out with
junior contracting professionals)
Cross train                                               All pricers have taken training or
                                                          actually performed one-pass
                                                          pricing sessions



                                                 38
                    Updated Benefits Estimate
  Control Tollgate
              g
           Metric             Baseline              Objective       Achieved
   Cycle Time            36 weeks for            Not defined    20-24 week
                         one-pass pricing                       reduction in one-
                         process for                            pass pricing
                         3,000 items                            process
   Cost Avoidance        21 percent              6-8 percent    $9.5 million
   (reduced prices)      increase due to         reduction      (9 4 percent
                                                                (9.4
                         escalation                             reduction)

   Cost Savings          $5.1 million of         $5.1 million   $3.2 million of
   (Overprocured         orders were                            orders were
   Orders)               identified                             canceled

   Price Reductions >    2 percent of            Not defined    49 percent
   15 percent            items                                  (17 percent
                         (60 percent                            higher)
                         higher)
Additional Benefits/Comments
       DLA reduced administrative lead times 84 percent to 9 days and Honeywell cut general
        and administrative rates almost in half.
       The process was more in control and prices were stabilized by adding a repricing clause
        to the contract.
       The one-pass pricing process was validated as a viable method to procure and sustain
        fair and reasonable prices for sole-source spare parts. Overall, prices have increased
        less than the inflation rate.
                                            39
  Define                 Measure               Analyze                Improve                  Control




Note: Footnotes on this page are part of the DoD LSS Program Office templates and are not relevant to this report.

                                                         40
Appendix A. Acronyms and Abbreviations
CAS         Cost Accounting g Standards
CPI         Continuous Process Improvement
DCAA        Defense Contract Audit Agency
DCMA        Defense Contract Management Agency
DCMO        Office of the Deputy Chief Management Officer
DIBBS       DLA Internet Bid Board System
DLA         Defense Logistics Agency
DLR         Depot-Level Repairable
DMAIC       Define-Measure-Analyze-Improve-Control
DORRA       DLA Office of Research and Resource Analysis
DPAP        Defense Procurement and Acquisition Policy
DVD         Direct Vendor Delivery
FPRA        Forward Pricing Rate Agreements
Freq        Frequency
Gov’tt
Gov         Government
Hon         Honeywell
HQ          Headquarters
IG          Inspector General
IST         Integrated Supplier Team
LSS         Lean Six Sigma
LTC         Long-Term Contract
OIG         Office of Inspector General
OPP         One-Pass Pricing
OSD         Office of the Secretary of Defense
PNM         Price Negotiation Memorandum
RACI        Responsible, Approver, Contributor, or Inform
SASC        Senate Armed Services Committee
SCG         Strategic Contracting Group
SOP         Standard Operating Procedures
SSA         Strategic Supplier Alliance
TINA        Truth in Negotiations Act


                                            41
Appendix B. Statistical Definitions
A squared – The measure of how closely a data set follows the normal distribution.
A-squared                                                                    distribution
Boxplot – A basic graphing tool that displays centering, spread, and distribution of a continuous data set.
Confidence Interval(CI)/Level – The degree of certainty that a statistical prediction is accurate.
Defects per Opportunity (DPO) – Total number of defects / total number of opportunities.
DP10K – Defects per 1010,000
                         000 opportunities
                              opportunities.
Fishbone – A tool used to solve quality problems by brainstorming causes and logically organizing them by branches.
Johnson Transformation – A system to transform nonnormal data to a normal form.
Kurtosis – The measure of the degree of distribution from both sides of a bell curve.
Lower Specification Limit (LSL) – Deviation below the target that is permitted to operate within the normal process
     parameters.
Maximum – The largest number in a set.
Mean – The average of a set of value.
Median – The middle value of an ordered set of values
                                                  values.
Minimum – The smallest number in a finite set of numbers.
N – Sample size.
P (Probability) Value – A calculation to determine if results are caused by chance.
Pp – A simple,
       simple straightforward indicator of process performance
                                                     performance.
Ppk – Process Performance Index. Adjustment of Pp for the effect of noncentered distribution.
PPL – Calculation of mean minus lower specification limit, divided by 3 times the standard deviation.
PPU – Calculation of upper specification limit minus the mean, divided by 3 times the standard deviation.
P
Process        bilit – A comparison
         Capability
         C                       i    off actual
                                            t l variability
                                                   i bilit off a process tto th
                                                                             the process specification.
                                                                                             ifi ti
Quartile – Any of three points that divide an ordered distribution into four parts, each containing one-quarter of the
     scores.
Range – The difference or interval between the smallest and largest values in a frequency distribution.
Skewness – The degree of asymmetry of a distribution around its mean  mean.




                                                           42
Appendix B. Statistical Definitions (cont’d)
Standard Deviation (StDev) – The square root of the variance
                                                        variance, which indicates how closely individual measurements
     cluster around the mean.
SU – A hyperbolic sine transformation (unbounded).
Target – A desired goal.
Upper Specification Limit (USL) – Deviation above the target permitted to operate within normal process parameters.
Variance – Difference between what is expected and what happens. The expected value of the square of the
     deviations of a random variable from its mean.
Yield – Percentage of a process that is free of defects.




                                                          43
